Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MEDICARE COMPLIANCE
  REVIEW OF HACKENSACK
UNIVERSITY MEDICAL CENTER
FOR THE PERIOD APRIL 1, 2011,
THROUGH SEPTEMBER 30, 2012


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                     Brian P. Ritchie
                                               Assistant Inspector General
                                                    for Audit Services

                                                      October 2014
                                                      A-02-13-01017
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY


 Hackensack University Medical Center did not fully comply with Medicare requirements
 for billing inpatient and outpatient services, resulting in estimated overpayments of at least
 $1.7 million over 1½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Hackensack University Medical Center
(the Hospital) complied with Medicare requirements for billing inpatient and outpatient services
on selected types of claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 775-bed acute care teaching hospital located in Hackensack, New Jersey.
Medicare paid the Hospital approximately $376 million for 22,385 inpatient and 159,420
outpatient claims for services provided to beneficiaries during the period April 1, 2011, through
September 30, 2012 (audit period), based on CMS’s National Claims History data.

Our audit covered $7,570,827 in Medicare payments to the Hospital for 1,553 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 200 claims with
payments totaling $1,498,349 for review. These 200 claims had dates of service during the audit
period and consisted of 45 inpatient and 155 outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 138 of the 200 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 62 claims, resulting in overpayments of $351,580 for the
audit period. Specifically, 26 inpatient claims had billing errors, resulting in overpayments of



Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                  i
$248,179, and 36 outpatient claims had billing errors, resulting in overpayments of $103,401.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,719,632 for the audit period.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,719,632 (of which $351,580 were overpayments
        identified in our sample) in estimated overpayments for claims it incorrectly billed during
        the audit period, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HACKENSACK UNIVERSITY MEDICAL CENTER COMMENTS
AND OUR RESPONSE

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take to address
them.

The Hospital disagreed with our determinations for 4 of the 62 sampled items that we found not
to be in compliance with Medicare billing requirements. Specifically, the Hospital indicated that
three inpatient claims met the medical necessity criteria for inpatient admission, and that one
outpatient claim did not require a physician’s order for observation services to be provided. The
Hospital also stated that the error rate of our sample of inpatient short stays is not representative
of the Hospital’s overall compliance for these stays. In addition, the Hospital disagreed with the
statement in our draft report that it did not have a case worker onsite to oversee final patient
discharge procedures, and stated that the lack of oversight was specific to the Hospital’s
operating room and post anesthesia care unit.

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical contractor to determine whether the three inpatient
and one outpatient claims met medical necessity and coding requirements. The contractor
examined all of the medical records and documentation submitted and carefully considered this
information to determine whether the Hospital billed the claims in compliance with Medicare
requirements. On the basis of the contractor’s conclusions, we determined that the Hospital
should have billed the three inpatient claims as outpatient or outpatient with observation services,
and that, for the one outpatient claim, an order written by a physician was required in order to
receive observation services.

We use computer matching, data mining, and data analysis techniques to identify claims
potentially at risk for noncompliance. The results from our stratified random sample were



Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                  ii
projected to all risk area claims from which they were drawn and were representative of the
selected population. Finally, we agree that a lack of case management for overseeing final
patient discharge procedures was specific to the Hospital’s operating room and post anesthesia
care unit, and have revised our report accordingly.




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)               iii
                                                     TABLE OF CONTENTS

INTRODUCTION ............................................................................................................................1

        Why We Did This Review ........................................................................................................1

        Objective ...................................................................................................................................1

        Background ...............................................................................................................................1
           The Medicare Program .......................................................................................................1
           Hospital Inpatient Prospective Payment System ................................................................1
           Hospital Outpatient Prospective Payment System ..............................................................1
           Hospital Claims at Risk for Incorrect Billing .....................................................................2
           Medicare Requirements for Hospital Claims and Payments ..............................................2
           Hackensack University Medical Center..............................................................................3

        How We Conducted This Review.............................................................................................3

FINDINGS .........................................................................................................................................3

        Billing Errors Associated With Inpatient Claims .....................................................................4
            Incorrectly Billed as Inpatient .............................................................................................4
            Manufacturer Credits for Replaced Medical Devices Not Obtained ..................................4

        Billing Errors Associated With Outpatient Claims...................................................................5
            Manufacturer Credits for Replaced Medical Devices Not Obtained ..................................5
            Incorrectly Billed Observation Services .............................................................................5
            Noncovered Dental Services ...............................................................................................6
            Incorrectly Billed Outpatient Services with Modifier -59 ..................................................6

           Overall Estimate of Overpayments ........................................................................................6

RECOMMENDATIONS ...................................................................................................................7

HACKENSACK UNIVERSITY MEDICAL CENTER COMMENTS
 AND OUR RESPONSE .................................................................................................................7

APPENDIXES ...................................................................................................................................8

        A: Audit Scope and Methodology ...........................................................................................8

        B: Statistical Sampling Methodology ......................................................................................10

        C: Sample Results and Estimates .............................................................................................12




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                                                               iv
      D: Results of Review by Risk Area .........................................................................................13

      E: Hackensack University Medical Center Comments ............................................................14




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                                            v
                                          INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Hackensack University Medical Center (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
types of claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare Program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptions to identify and group the services




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                   1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources. In addition to the basic payments, hospitals may be eligible
for an additional payment, called an outlier payment, when the hospital’s costs exceed certain
thresholds.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims billed with observation services that resulted in outlier payments,

    •   outpatient claims billed with modifier -59,

    •   outpatient claims billed with Doxorubicin Hydrochloride,

    •   outpatient claims billed with Herceptin, and

    •   outpatient dental services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due to the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.


1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                                  2
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Hackensack University Medical Center

The Hospital, which is part of the Hackensack University Health Network, is a 775-bed acute
care teaching hospital located in Hackensack, New Jersey. Medicare paid the Hospital
approximately $376 million for 22,385 inpatient and 159,420 outpatient claims for services
provided to beneficiaries from April 1, 2011, through September 30, 2012, (audit period) based
on CMS’s National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $7,570,827 in Medicare payments to the Hospital for 1,553 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 200
claims with payments totaling $1,498,349. These 200 claims had dates of service during the
audit period and consisted of 45 inpatient and 155 outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and submitted 68 claims
to focused medical review to determine whether the services met medical necessity and coding
requirements. This report focuses on selected risk areas and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                              FINDINGS

The Hospital complied with Medicare billing requirements for 138 of the 200 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 62 claims, resulting in overpayments of $351,580 for the
audit period. Specifically, 26 inpatient claims had billing errors resulting in overpayments of
$248,179, and 36 outpatient claims had billing errors resulting in overpayments of $103,401.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,719,632 for the audit period.




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                 3
See Appendix B for our statistical sampling methodology, Appendix C for our sample results
and estimates, and Appendix D for the results of our review by risk area.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 26 of 45 sampled inpatient claims, which resulted in
overpayments of $248,179.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862 (a)(1)(A)).

For 24 of the 45 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that did not meet Medicare criteria for inpatient status and should have been billed as
outpatient or outpatient with observation services. The Hospital stated that these errors occurred
because there was no process in place for monitoring procedures ordered on the outpatient
surgery list in its Emergency Department, and that patients were discharged prior to the
Hospital’s initiating a request to change patients’ statuses from inpatient admission to outpatient
status. In addition, the Hospital did not always have a case manager onsite to oversee final
patient discharge procedures. As a result of these errors, the Hospital received overpayments of
$207,569. 2

Manufacturer Credits for Replaced Medical Devices Not Obtained

Federal regulations require reductions in the IPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
cost of the device (42 CFR § 412.89). Federal regulations state, “All payments to providers of
services must be based on the reasonable cost of services ….” (42 CFR § 413.9). The Manual
states that, to bill correctly for a replacement device that was provided with a credit, hospitals
must code Medicare claims with a combination of condition code 49 or 50, along with value
code “FD” (chapter 3, § 100.8). The CMS Provider Reimbursement Manual (PRM) reinforces
these requirements in additional detail (Pub. No. 15-1). 3

2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.
3
 The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service” (part I, § 2102.1). Section 2103 further defines prudent buyer
principles and states that Medicare providers are expected to pursue free replacements or reduced charges under
warranties. Section 2103(C)(4) provides the following example: “ Provider B purchases cardiac pacemakers or their
components for use in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for


Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                                 4
For 2 of the 45 inpatient claims, the Hospital did not obtain a credit for a replaced medical device
for which a credit was available under the terms of the manufacturer’s warranty. The Hospital
stated that these errors occurred because it did not have a formal process in place for identifying
the devices subject to manufacturer credits. As a result of these errors, the Hospital received
overpayments of $40,610.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 36 of 155 sampled outpatient claims, which resulted
in overpayments of $103,401.

Manufacturer Credits for Replaced Medical Devices Not Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). As described in footnote 3 of this report, the PRM reinforces these requirements in
additional detail.

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

For 5 of the 155 sampled claims, the Hospital did not obtain a credit for a replaced device that
was available under the terms of the manufacturer’s warranty. The Hospital stated that these
errors occurred because it did not have a formal process in place to identify the implantable
medical devices that were subject to warranty or recall. As a result of these errors, the Hospital
received overpayments of $62,303.

Incorrectly Billed Observation Services

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). The Manual states: “Observation time begins at the
clock time documented in the patient’s medical record, which coincides with the time that
observation care is initiated in accordance with a physician’s order. A provider should not report,
as observation care, services that are part of another Part B service, such as postoperative
monitoring during a standard recovery period (e.g., 4 to 6 hours), which should be billed as
recovery room services… observation time ends when all medically necessary services related to

full or partial credits available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment.”


Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                                  5
observation care are completed” (chapter 4, § 290.2.2). The Manual also states: “Observation
services must also be reasonable and necessary to be covered by Medicare” (chapter 4, § 290.1).
In addition, the Manual states: “In order to be processed correctly and promptly, a bill must be
completed accurately” (chapter 1, § 80.3.2.2).

For 19 of the 155 sampled claims, the Hospital billed Medicare for incorrect units of service for
HCPCS code G0378 (hospital observation services). The Hospital stated that these errors
occurred due to a weakness in its workflow process and human error. As a result of these errors,
the Hospital received overpayments of $18,929.

Noncovered Dental Services

The Act precludes payment under Part A or Part B for any expense incurred for items or services
where such expenses are for services in connection with the care, treatment, filling, removal, or
replacement of teeth or structures directly supporting teeth (§ 1862 (a)(12)).

For 6 of the 155 sampled claims, the Hospital incorrectly billed Medicare for the removal of
teeth. The Hospital stated that these errors were due to human error. Specifically, the Hospital
stated that scheduling personnel did not evaluate dental procedures to assure that the services
were covered by Medicare. As a result of these errors, the Hospital received overpayments of
$16,397.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, §80.3.2.2). It also states: “The ‘-59’ modifier is used to indicate a
distinct procedural service …. This may represent a different session or patient encounter, a
different procedure or surgery, different site, or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)” (chapter 23, § 20.9.1.1).

For 6 of the 155 sampled claims, the Hospital incorrectly billed Medicare for HCPCS codes with
modifier -59 for services that were already included in the payments for other services billed on
the same claim. The Hospital stated that these errors occurred due to unclear guidance on billing
issues and discrepancies in educational materials. As a result of these errors, the Hospital
received overpayments of $5,772.

OVERALL ESTIMATE OF OVERPAYMENTS

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $1,719,632 for the audit period.




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                 6
                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,719,632 (of which $351,580 were overpayments
        identified in our sample) in estimated overpayments for claims it incorrectly billed during
        the audit period, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

               HACKENSACK UNIVERSITY MEDICAL CENTER COMMENTS
                              AND OUR RESPONSE

In written comments on our draft report, the Hospital generally concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take to address
them.

The Hospital disagreed with our determinations for 4 of the 62 sampled items that we found not
to be in compliance with Medicare billing requirements. Specifically, the Hospital indicated
that three inpatient claims met the medical necessity criteria for inpatient admission, and one
outpatient claim did not need a physician order for observation services to be provided. The
Hospital also stated that the error rate of our sample of inpatient short stays is not representative
of the Hospital’s overall compliance for these stays. In addition, the Hospital disagreed with the
statement in our draft report that it did not have a case worker onsite to oversee final patient
discharge procedures, and stated that the lack of oversight was specific to the Hospital’s
operating room and post anesthesia care unit. The Hospital’s comments are included in their
entirety as Appendix E.

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical contractor to determine whether the three inpatient
and one outpatient claims met medical necessity and coding requirements. The contractor
examined all of the medical records and documentation submitted and carefully considered this
information to determine whether the Hospital billed the claims in compliance with Medicare
requirements. On the basis of the contractor’s conclusions, we determined that the Hospital
should have billed the three inpatient claims as outpatient or outpatient with observation services,
and that, for the one outpatient claim, an order written by a physician was required in order to
receive observation services.

We use computer matching, data mining, and data analysis techniques to identify claims
potentially at risk for noncompliance. The results from our stratified random sample were
projected to all risk area claims from which they were drawn and were representative of the
selected population. Finally, we agree that a lack of case management for overseeing final
patient discharge procedures was specific to the Hospital’s operating room and post anesthesia
care unit, and have revised our report accordingly.




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                      7
                       APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $7,570,827 in Medicare payment to the Hospital for 1,553 claims that were
potentially at risk for billing errors. We selected a stratified random sample of 200 claims with
payments totaling $1,498,349 for review. These 200 claims had dates of service during the audit
period and consisted of 45 inpatient and 155 outpatient claims.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and submitted 68
claims to focused medical review to determine whether the services met medical necessity and
coding requirements.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from May 2013 through November 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s National
        Claims History file for the audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   selected a stratified random sample of 200 claims (45 inpatient and 155 outpatient)
        totaling $1,498,349 for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   obtained information on known credits for replaced cardiac medical devices from device
        manufacturers for the audit period;



Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                   8
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for submitting Medicare claims;

    •   used CMS’s Medicare administrative contractor medical review staff and an independent
        contractor to determine whether 68 sampled claims met medical necessity and coding
        requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments;

    •   used the results of the sample to estimate the Medicare overpayments to the Hospital
        (Appendix C); and

    •   discussed the results of the review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                 9
                 APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population contained inpatient and outpatient claims paid to the Hospital for services
provided to Medicare beneficiaries during the audit period.

SAMPLING FRAME

Medicare paid the Hospital $208,813,780 for 9,059 inpatient and 31,173 outpatient claims in 34
risk areas for services provided to beneficiaries during the audit period based on CMS’s National
Claims History data.

From these 34 risk areas, we selected 9 consisting of 18,141 claims totaling $136,867,096 for
further review. We then removed the following:

      •   all $0 paid claims,

      •   all claims under review by the Recovery Audit Contractor, and

      •   all duplicated claims within individual high risk categories.

We assigned each claim that appeared in multiple risk areas to just one area. We then further
revised our sampling frame based on refinements within each category, resulting in a sampling
frame of 1,553 unique Medicare claims in 9 risk areas totaling $7,570,827.

                                                                        Number of    Amount of
                                 Risk Area                               Claims      Payments
 1.   Inpatient Short Stays                                                244          $2,225,67
 2.   Inpatient Manufacturer Credits for Replaced Medical                   10           $442,396
 3.   Inpatient Claims Billed with High-Severity-Level DRG                   5            $33,400
 4.   Outpatient Observation with Outliers                                1090          $3,867,15
 5.   Outpatient Claims Billed with Modifier -59                           109           $434,976
 6.   Outpatient Claims Billed for Doxorubicin Hydrochloride                65           $262,427
 7.   Outpatient Claims Billed for Herceptin                                13            $83,529
 8.   Outpatient Manufacturer Credits for Replaced Medical                  10           $202,777
 9.   Outpatient Billing for Dental Services                                 7            $18,491
        Total                                                             1,553         $7,570,82

SAMPLE UNIT

The sample unit was a Medicare paid claim.




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)              10
SAMPLE DESIGN

We used a stratified random sample. We stratified the sampling frame into nine strata based on
risk area.

SAMPLE SIZE

We selected 200 claims for review as follows:

 Stratum                               Medicare Issue                                Claims in Sample
      1      Inpatient Short Stays                                                          30
      2      Inpatient Manufacturer Credits for Replaced Medical Devices                    10
      3      Inpatient Claims Billed with High-Severity-Level DRG Codes                     5
      4      Outpatient Observation with Outliers                                           30
      5      Outpatient Claims Billed with Modifier -59                                     30
      6      Outpatient Claims Billed for Doxorubicin Hydrochloride                         65
      7      Outpatient Claims Billed for Herceptin                                         13
      8      Outpatient Manufacturer Credits for Replaced Medical Devices                   10
      9      Outpatient Billing for Dental Services                                         7
             Total Sampled Claims                                                          200

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General/Office of Audit Services
(OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata 1, 4, and 5. After generating the random
numbers for strata 1, 4, and 5, we selected the corresponding claims in each stratum. We
selected all claims in strata 2, 3, 6, 7, 8, and 9.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to calculate our estimates. We used the lower-limit
of the 90-percent confidence interval to estimate the amount of improper Medicare payments in
our sampling frame during the audit period.




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                  11
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                        SAMPLE RESULTS

                                                                     Number of
             Frame                                     Total         Incorrectly       Value of
               Size        Value of  Sample          Value of       Billed Claims    Overpayments
Stratum     (Claims)        Frame     Size            Sample          in Sample       in Sample
    1          244        $2,225,674    30             $245,681           20              $179,441
   2*           10           442,396    10              442,396            2                40,610
   3*            5            33,400     5               33,400            4                28,128
    4         1090         3,867,157    30               99,786           19                18,929
    5          109           434,976    30              109,862            6                  5,772
   6*           65           262,427    65              262,427            0                      0
   7*           13            83,529    13               83,529            0                      0
   8*           10           202,777    10              202,777            5                62,303
   9*            7            18,491     7               18,491            6                16,397
 Total        1,553       $7,570,827   200           $1,498,349           62              $351,580
* We reviewed all claims in this stratum.

                                             ESTIMATES

                        Estimates of Overpayments for the Audit Period
                      Limits Calculated for a 90-Percent Confidence Interval

                                  Point Estimate           $2,315,603
                                  Lower Limit              $1,719,632
                                  Upper Limit              $2,911,574




Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)               12
                     APPENDIX D: RESULTS OF REVIEW BY RISK AREA

                                                        Value of
                                          Selected      Selected        Claims With   Value of
             Risk Area                    Claims        Claims         Overpayments Overpayments

Inpatient

Short Stays                                      30       $245,681                     20       $179,441
Manufacturer Credits for Replaced
Medical Devices                                  10         442,396                     2          40,610
Claims Billed With High-Severity-
Level DRG Codes                                   5          33,400                     4          28,128

 Inpatient Totals                                45       $721,477                     26       $248,179



Outpatient
Manufacturer Credits for Replaced
Medical Devices                                  10       $202,777                      5         $62,303

Observation Claims With Outliers                 30          99,786                    19          18,929

Dental Services                                   7          18,491                     6          16,397

Claims Billed With Modifier -59                  30         109,862                     6           5,772
Claims Billed for Doxorubicin
Hydrochloride                                    65         262,427                     0                0

Claims Billed for Herceptin                      13          83,529                     0                0

 Outpatient Totals                             155        $776,872                     36       $103,401



 Inpatient and Outpatient Totals               200      $1,498,349                     62       $351,580

  Notice: The table above illustrates the results of our review by risk area. In it, we have organized
  inpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the
  types of billing errors we found at Hackensack University Medical Center. Because we have organized
  the information differently, the information in the individual risk areas in this table does not match
  precisely with this report’s findings.




  Medicare Compliance Review of Hackensack University Medical Center (A-02-13-01017)                    13
   APPENDIX E: HACKENSACK UMVERSITY MEDICAL CENTER COMMENTS 





         September 8, 2 014

         Mr. James P. Edert
         Regional Inspector General, Audit Services
         Office of Audit Services, Region II
         Jacob K. Javits Federal Building
         2 6 Federa I Plaza, Room 390 0
         New York, NY 1 0278



         Re: Draft Repol't NumberA-02-13-01017

         Dear Mr. Edert,

         Hackensack University Medical Center (HackensackUMC) appreciates the opportunity to review and provide
         comment on the draft report entitled Medicare Compliance Review of Hackensack University Medical Center for
         the Period April1, 2011, through September 30, 2012, (Report Number A-02-13-01017). As requested in your
         letter, I am providing written comments rei ated to the validity of the facts and reasonableness of the
         recommendations in this report and the nature of corrective action taken or planned.

         HackensackUM Cis committed to compliance with all federal regulations and standards governing its participation
         in federal health care programs and has a well-established com plia nee program dedicated to assuring that
         HackensackUM C, its employees and staff understand and comply with applicable laws and regulations. As
         indicated in this letter, HackensackUMC has enhanced its internal controls and plans to work with the Medicare
         Administrative COntractor to appeal where noted, recalculate extrapolated errors where appropriate and process
         any necessary adjustments.

         In response to the OIG's review findings, HackensackUMC provides the following comments:

         BILLING ERRORS ASSOCIATED \MT H INPATIENT CLAIMS

         Incorrectly Billed as Inpatient

         HackensackUM c generally concurs with the OIG's findings for 21 of the 24 incorrectly billed claims in the 45
         sampled inpatient claims, the Hospital incorrectly billed Medicare Part A for beneficiary stays that did not meet
         Medicare criteria for inpatient status and should have been billed as outpatient or outpatient with observation
         services. However, we believe that the error rate of this sam pie is not representative of our overall campi iance
         for inpatient short stays. HackensackUMC has devoted significant resources to improving our case management
         processes. The claims reviewed com prise a small percentage of our short stay val ume, and my belief is the
         provider community would be better served if OIG shared these risk areas prospectively so we may further
         improve our processes. In performing our internal assessment of this sample, a HackensackU MC Physician Advisor

                                                                                                                                          1

         Hacl<ens<ek University Medical Center I 30 Prospect Avenue   I   H<ekensack, NJ 07601   I 551-996-2000 I   IM'WV.HackensackUMC .org




Medicare Compliance Review ofHackensack University Medical Center (A-02-13-01017)                                                              14
         reviewed each record using lnterqual criteria as well as their medical judgment to evaluate the medica l necessity
         of the admission.

         • 	 We disagree with the OIG statement that the Hospital did not have a case manager onsite to oversee final
             patient discharge procedures. We did have case management on site and in the emergency room 15 hours
             a day and on weekends. The oversight that was lacking was specific to the OR and PACU, and a weakness
             in the system allowed the cases to be discharged prior to the review by case management.
         • 	 We are appealing 3 of the 24 claims in the review as we believe the cases met the medical necessity
             criteria for inpatient admission. As indicated in the Report, HackensackUMC intends to bill Medicare Part
             B for all services that would have been reasonable and necessary had the beneficiary been originally
             designated as an outpatient rather than admitted as an inpatient.

         During the review period, HackensackUMC had a full-time physician advisor avai lable to the emergency
         department during daytime hours to assist in evaluating the medical necessity of patient stay and appropriate
         patient status. Since the review began, HackensackUMC has provided physician re-education on eva luating the
         medical necessity of patient stays and appropriate patient status. We have also increased case management
         accessibility in the emergency department with the goal of proactive interaction with the emergency physicians
         to enhance care-coordination when establishing patient status. Lastly, case management has worked with our
         Revenue Cycle Team to improve the registration process for patients going from the emergency setting directly
         to the operating room.

         Manufacturer Credits for Replaced Medical Devices Not Obtained

         We concur with the OIG's findings related to 2 of the 45 inpatient claims, HackensackUMC did not obtain a credit
         for a replaced medica l device for which a credit was available under the terms of the manufacturer warranty. In
         late 2012, we performed an internal review to determine what the medical center's processes were for identifying
         and billing patients for implantable devices replaced under warranty or recalled for credit. In early 2013, prior to
         the OIG notice of review, a policy and procedure was drafted, and we began piloting this new process.

         A multidisciplinary team developed a process for identifying patients and billing Medicare for implantable devices
         replaced under recal l or warranty. A central electronic repository was developed. Accessible to all involved
         department, the repository contained a device return log, various scanned forms and documents, and is now used
         to track possible and actual credits and the rebilling to Medicare when credits received were at least 50% of the
         replacement cost. We continue to monitor and evaluate the efficacy of this process.

         BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

         Manufacturer Credits for Medical Devices Not Obtained

         We concur with the OIG's f indings related to 5 of the 155 outpatient claims, HackensackUMC did not obtain a
         credit for a replaced medical device for which a credit was available under the terms of the manufacturer
         warranty. In late 2012 we performed an internal review to determine what the medica l center's processes were
         for identifying and billing patients for implantable devices replaced under warranty or recalled for credit. In early
         2013, prior to the OIG notice of review, a policy and procedure was drafted, and we began piloting this new
         process.



                                                                                                                                       2

         Hackensack University Medical Center I 30 Prospect Avenue   I   Hackensack, NJ 07601   I 551-996-2000 I   www HackensackUMC.org




.Medicare Compliance Review ofHackensack University .Medical Center (A-02-13-01017)                                                        15
         A multidisciplinary team developed a process for identifying patients and billing Medicare for implantable devices
         replaced under recall or warranty. A central electronic repository was developed. Accessible to all involved
         department, the repository contained a device return log, various scanned forms and documents, and is now used
         to track possible and actual credits and the rebilling to Medicare when credits received were at least 50% of the
         replacement cost. We continue to monitor and evaluate the efficacy of this process.

         Incorrectly Billed Observation Services

         We generally concur with the OIG statement with one exception; the OIG stated that one claim was paid in error
         because the patient's medica l record did not contain a va lid order signed by a physician for outpatient observation
         services. During the period of review (April!, 2011, through September 30, 2012), a physician order was not a
         requirement for observation services. According to the Medicare Claims Processing Manual- Chapter 4, Section
         290.1 - Outpatient Observation Services:

                  Observation services are covered only when provided by the order of a physician or another
                  individual authorized by State licensure law ond hospital staffbylaws to admit patients to the
                  hospital or to order outpatient services.

         •	   HackensackUMC is appea li ng the above noted claim as observation is an outpatient service and was ordered
              by an APN practicing w ithin her scope. We believe that a physician order was not a requirement for the
              observation services provided during the period of review.

         Additional errors were attributed to incorrectly calculated units of observation. Prior to this review, an automated
         process was implemented in August 2013 to calculate observation units and carve outs for separately billable
         monitored procedures. In addition, Medical leadership is now implementing an educational initiative to ensure
         timely communication and patient hand off reports between physicians treating observation cases. This will assure
         that patients are appropriately discharged when observation is no longer required.

         Noncovered Dental Services

         We concur with the OIG' s findings that for 6 of the 155 sampled claims, the Hospital incorrectly billed Medicare
         for the remova l of teeth. Since this review, a screening process has been employed at the time of scheduling to
         ensure that the appropriate dental services are performed based on the coverage criteria. In addition, we provided
         education to the OR Scheduling Team and appropriate physicians regarding Medicare's Regulations as it relates
         to Dental Services. If services must be performed for clinical reasons; physician/scheduling team must inform
         Beneficiary that these are non· covered services and statutorily excluded. Beneficiary will be informed of his/her
         liability and claims wil l be submitted to Medicare fo r a denial only. As a secondary contro l, a coding logic edit was
         implemented to identify claims that do not meet the established Medicare criteria prior to the bill dropping.

         Incorrectly Billed Outpatient Services with Modifier-59

         We concur with the OIG's findings that for 6 of the 155 sampled claims, the Hospital incorrectly billed Medicare
         for HCPCS codes w ith modifier -59 for services that were already included in the payment for other services billed
         on the same claim. HackensackUMC has a strong coding compliance program in place and as noted in the report,
         the identified errors were attributed to conflicting guidance.



                                                                                                                                       3

         Hackensack University Medical Center I 30 Prospect Avenue   I   Hackensack, NJ 07601   I 551-996-2000 I   www HackensackUMC.org




.Medicare Compliance Review ofHackensack University .Medical Center (A-02-13-01017)                                                        16
         Since the review, HackensackUMC implemented additional edits to identify code pairs that cannot be unbundled.
         In addition, the Department of Health Information Management conducts focused reviews on accounts with the
         use of Modifier-59 and has added all issues identified by this audit to their coding compliance program. The
         Department will continue to provide staff education on Modifier-59 and has purchased additional reference tools
         for the APC Auditor and Coders to use for guidance.

         We appreciate the cooperation and professionalism shown by the OIG audit team who performed this review.
         Please feel free to contact me if you have any questions.



         Sincerely,

         Thomas A. Flynn



                  /Thomas A. Flynn/

         Thomas A. Flynn
         Vice President, Chief Compliance Officer
         Hackensack University Medical Center




         c/ Robert C. Garrett, President and CEO, Hackensack University Health Network




                                                                                                                                      4

         Hackensack University Medical Center I 30 Prospect Avenue   I   Hackensack, NJ 07601   I 551-996-2000 I   www HackensackUMC.org




.Medicare Compliance Review ofHackensack University .Medical Center (A-02-13-01017)                                                        17
